  November 24, 2006




Financial Management
Vendor Pay Disbursement Cycle, Air
Force General Fund: Payments to
Vendors
(D-2007-027)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFAFO                 Air Force Accounting and Finance Office
CMA                   Centrally Managed Allotment
DCAA                  Defense Contract Audit Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
IAPS                  Integrated Accounts Payable System
JFMIP                 Joint Financial Management Improvement Program
MOCAS                 Mechanization of Contract Administration Services
OUSD                  Office of the Under Secretary of Defense
               Department of Defense Office of Inspector General
Report No. D-2007-027                                                 November 24, 2006
   (Project No. D2004-D000FD-0040.002)

        Vendor Pay Disbursement Cycle, Air Force General Fund:
                        Payments to Vendors

                                 Executive Summary

Who Should Read This Report and Why? Air Force and Defense Finance and
Accounting Service (DFAS) personnel who are responsible for certifying and making
payments to vendors should read this report. This report discusses the need for
improving internal controls over using appropriations to pay vendors, scheduling
payments in accordance with the Prompt Payment Act, and following cash management
practices.

Background. Management is responsible for establishing and maintaining internal
control to assure effective and efficient operations, reliable financial reporting, and
compliance with laws and regulations. The Inspector General Act of 1978, as amended,
provides for the independent review of agency programs and operations in accordance
with generally accepted government auditing standards which require audit to report on
internal control and compliance with laws and regulations. Such a review of the vendor
pay disbursement cycle spans the acquisition; funding; delivery, receipt, and acceptance;
payment; and recording of the financial transactions in the official accounting records.
This is the third in a series of five reports on internal control of the Air Force General
Fund vendor pay disbursement cycle. This report cites weaknesses in internal control
related to vendor payments and the appropriations used, and to compliance with the laws
and regulations related to prompt payment and cash management practices.

Results. Internal control was not effective to ensure that vendors were paid with the
correct appropriations and in accordance with the laws and regulations for prompt
payment and cash management practices.

Defense Finance and Accounting Service personnel did not pay vendors from the correct
appropriation in 3 of the 45 contracting actions examined. In two of these actions,
personnel paid the vendors with appropriations unavailable for obligation in the period
that the services were performed. In the third action, personnel charged a foreign
currency fluctuation loss to the operating appropriation instead of the centrally managed
allotment established for that purpose. As a result, the risk is high that numerous
unidentified errors exist in the certification of vouchers and the appropriations used to
pay vendors. The Assistant Secretary of the Air Force (Financial Management and
Comptroller) should establish guidance to ensure the correct appropriations are used to
pay for services in the periods that the services are performed. DFAS should establish an
automated system edit to ensure foreign currency fluctuation losses are not charged to
operating appropriations. See finding A for the detailed recommendations.

Defense Finance and Accounting Service personnel did not always ensure vendors were
paid in accordance with the contract terms in 25 of the 45 contracting actions examined.
As a result, the risk is high that numerous vendor payments are paid late and do not
include interest penalties. See finding B for the detailed recommendations.

Defense Finance and Accounting Service personnel did not follow cash management
practices to prevent early payments to vendors and to accept cash discounts from
vendors. In 16 of 45 contracting actions, personnel paid vendors earlier than seven days
before the properly scheduled payment due date. In two other actions, personnel did not
accept 15 economically justified vendor discounts offered by the contractor. As a result,
the risk is high that numerous payments are paid earlier than allowed and discounts are
not taken when offered. See finding C for the detailed recommendations.

Management Comments and Audit Response. The Director, Air Force Accounting
and Finance Office, nonconcurred with the findings and recommendations, stating that
DoDIG should revise the draft report to direct recommendations to the appropriate
officials. He further stated that the Air Force does not see it is necessary to take
additional action to follow up on payments or recertify accounting officials. We do not
agree that we should revise the recommendations. Since internal control of Air Force
General Fund payments to vendors is a responsibility of Air Force management, the
Secretary of the Air Force for Financial Management is the one to take action to improve
these controls. Further, we believe it is warranted to follow up on payments because of
the potential violation of laws and regulations that could occur from incorrectly using an
appropriation (Antideficiency Act, illegal augmentation, and others). The recertification
of accounting officials reinforces the importance that the Air Force places on the roles
that these officials play in safeguarding against erroneous payments.

The Assistant Secretary of the Air Force (Acquisition) concurred with the three
recommendations they determined to be their responsibility, stating that the Deputy
Assistant Secretary (Contracting) will issue guidance and memorandums to eliminate
designated billing office ambiguities in contracts, ensure that Contracting Officers clearly
understand contract financing payments, and direct Contracting Officers to assure the
proper contract payment clauses are in place.

The Central Site Director, Defense Finance and Accounting Service, Denver, concurred
with, or concurred with the intent of, eight recommendations, and nonconcurred with two
recommendations. The Director did not agree that the findings constitute a high risk as
presented in the audit, stating that the sample of 45 items was not a true representation of
the total contracts and that one defect does not indicate a high risk. He also stated that
they currently have a means of determining whether cost contracts and interim payments
are for cost reimbursement services or contract financing. We do not agree that these
conditions do not constitute a high risk since our assessment was based on the
Government Accountability Office and President’s Council on Integrity and Efficiency
Financial Audit Manual criteria for conducting a control sample test of internal control
and compliance with laws and regulations. We also do not agree that DFAS has a means
of determining payments for cost reimbursement services or contract financing payments
because we determined that six of nine contracting actions reviewed were not properly
designated in accordance with the terms of the contract.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) and the Central Site Director, Defense Finance and Accounting Service,
Denver, reconsider their positions. We request all comments to the final report by
January 23, 2007. See the Finding sections of the report for a discussion of management
comments to the recommendations, Appendix C for management comments to the
Findings, and the Management Comments section of the report for the complete text of
the comments.

                                             ii
Table of Contents

Executive Summary                                                 i

Background                                                       1

Objectives                                                       2

Findings
     A. Identifying Appropriations for Payment                    3
     B. Compliance with Prompt Payment Act                        9
     C. Cash Management Practices                                19

Appendixes
     A. Scope and Methodology                                    25
         Prior Coverage                                          26
     B. Contracting Actions Selected for Review                  27
     C. Management Comments on the Findings and Audit Response   30
     D. Report Distribution                                      31

Management Comments
     Department of the Air Force                                 33
     Defense Finance and Accounting Service                      40
Background
          Management is responsible for establishing and maintaining internal control to
          assure effective and efficient operations, reliable financial reporting, and
          compliance with laws and regulations. The Inspector General Act of 1978, as
          amended, provides for the independent review of agency programs and operations
          in accordance with generally accepted government auditing standards which
          require audit to report on internal control and compliance with laws and
          regulations. Such a review of the vendor pay disbursement cycle spans the
          acquisition; funding; delivery, receipt, and acceptance; payment, and recording of
          the financial transactions in the official accounting records.

          Three types of internal controls exist: compliance, operations, and financial
          reporting. In this audit, we conducted a series of control sample tests related to
          the three types of internal controls as presented in the Government Accountability
          Office and President’s Council on Integrity and Efficiency Financial Audit
          Manual. In accordance with these guidelines, 1 we randomly selected
          45 contracting actions for a comprehensive examination of:

               •   the nature and funding of the contracts;

               •   delivery, receipt, and acceptance;

               •   payment; and

               •   financial recording of the related budgetary and proprietary transactions in
                   the official accounting records.

          In a sample of 45 items, one defect indicates that the risk is high that the relevant
          internal control is not effective. Depending on the type and nature of the internal
          control deviation, the internal control defect might be significant as a separate
          finding or treated as one of a homogeneous group of like errors and related
          causes.
          This is the third in a series of five audit reports on the effectiveness of internal
          control related to the Air Force General Fund vendor pay disbursement cycle.
          This report examines the effectiveness of financial controls, manual and
          automated, for appropriations charged, and the scheduling of payments in
          accordance with the Prompt Payment Act, and cash management practices.

          The first report in this series, “Report on Vendor Pay Disbursement Cycle, Air
          Force General Fund: Contract Formation and Funding” (D-2006-056),
          March 6, 2006, covered the internal control related to contract formation and
          followup, with the focus on the contracting officer’s role and responsibility. The
          second report in this series, “Vendor Pay Disbursement Cycle, Air Force General
          Fund: Funds Control” (D-2006-085), May 15, 2006, examined the effectiveness


1
    GAO/PCIE Financial Audit Manual, section 400, figure 450.1, “Sample Sizes and Acceptable Numbers
    of Deviations,” July 2001.



                                                   1
    of the compliance controls that ensure that the correct lines of accounting are used
    in paying contracts.


Objectives
    Our overall audit objective was to assess internal controls and compliance with
    laws and regulations pertaining to the vendor pay disbursement cycle in the Air
    Force General Fund and supported activities. See Appendix A for a discussion on
    the scope and methodology and Appendix B for a complete list of the
    45 contracting actions randomly selected for examination.




                                         2
           A. Identifying Appropriations for
              Payment
           Internal control was not effective to ensure that vendors were paid from
           the correct appropriation in 3 of the 45 contracting actions examined. In
           two of the three contracting actions, Defense Finance and Accounting
           Service (DFAS) personnel paid vendors using appropriations that were
           unavailable to pay for the services in the fiscal year the services were
           rendered. In the third action, DFAS personnel charged a foreign currency
           fluctuation loss to an operating appropriation rather than to the centrally
           managed allotment (CMA) established to cover significant foreign
           exchange losses. We generally attributed the errors to a lack of DFAS and
           Air Force personnel oversight of the appropriations used to certify the
           vouchers for payment based upon the period of performance funded on the
           contract as a bona fide need and the purpose of the CMA to pay for a
           foreign currency loss. However, we also attributed the errors to a lack of
           accountability, and to the absence of automated detective, corrective, and
           preventative controls in the acquisition, vendor pay, and accounting
           systems. In the three contracting actions, DFAS personnel took corrective
           action after we notified them of the errors. We do not believe that DFAS
           and Air Force personnel would have identified and corrected the errors
           without our notice. As a result, the risk is high that numerous unidentified
           errors exist in the certification of vouchers and the appropriations used to
           pay vendors.


Critical Guidance
    Appropriation Law. Section 1502, title 31, United States Code
    (31 U.S.C. 1502) states an appropriation is not available for expenditure beyond
    the period allowed by law. Section 2410a, title 10, United States Code
    (10 U.S.C. 2410a), which applies to contracts for severable services that cross
    fiscal years, states an appropriation may be obligated for the total amount of a
    contract as long as the contract period does not exceed one year.

    Foreign Currency Fluctuations. In FY 1979 Congress authorized an
    appropriation, entitled Foreign Currency Fluctuation, Defense (FCF,D), to
    facilitate the transfer of funds to (and from) DoD operating appropriations to
    cover significant losses from foreign exchange rate fluctuations. The FCF,D
    appropriation was to alleviate the adverse effect that significant fluctuations had
    on authorized DoD programs that were funded by the Operation and Maintenance
    appropriation and, more recently, the Military Personnel appropriation. These
    funds are available only to fund each service’s CMA to cover net losses because
    of unfavorable fluctuations in foreign currency rates.

    According to the DoD Financial Management Regulation (FMR) 7000.14-R,
    disbursing officers are required to charge the variance between the budget rate
    and the current rate to the CMA.



                                         3
    Accountability. According to the DoD FMR, volume 5, chapter 33, section
    3307, departmental accountable officers are pecuniary liable for illegal, improper,
    or incorrect payments if a certifying officer relies on the information, data, or
    services they provided in the certification of an invoice for payment under
    section 2773a, title 10, United States Code. Under section 3528, title 31, United
    States Code, a certifying officer is pecuniary liable for an illegal, improper, or
    incorrect payment if an invoice was improperly certified for payment. In
    addition, the certifying officer is responsible for the legality of a proposed
    payment under the appropriation. Finally, disbursing officers are pecuniary liable
    for illegal, improper, or incorrect payments, and for errors in their accounts in
    accordance with section 3325, title 31, United States Code.

    System Controls. The Joint Financial Management Improvement Program
    (JFMIP) publication on Federal financial management systems, “Acquisition/
    Financial Systems Interface Requirements,” June 2002, states that interface
    requirements should exist between the contract administration and payment
    management function within the core financial system. Specifically,

           As part of contract administrative management activities, receipt and
           acceptance of products and services are routinely addressed so that
           contractor performance and related payments can be accomplished in
           accordance with the contract’s terms and conditions.

    The JFMIP further observed that the:
           Documentation supporting payment, such as evidence of receipt and
           acceptance, may be provided through interfaces with acquisition,
           property management, inventory, or other systems involved in the
           receipt and acceptance of products or services.

    Finally, with regard to the interface requirements (which included the mandatory
    and value-added requirements, data elements and entries for the funds
    certification, obligation, and payment processes), the JFMIP stated:

           A need [exists] for information, such as data requirements, reporting
           needs, internal controls, or edit requirements, required by the
           acquisition and finance functions as a result of transactions within the
           single integrated financial management system.



Appropriations Charged
    Internal control was not effective to assure that vendors were paid from the
    correct appropriation in 3 of the 45 contracting actions examined. In two of the
    three contracting actions, DFAS personnel charged payments to appropriations
    that were unavailable to pay for the services in the period the services were
    performed in violation of 31 U.S.C. 1502. In the third action, DFAS personnel
    charged a loss because of a foreign currency fluctuation to the operating
    appropriation instead of to the established CMA. In the three contracting actions,
    DFAS personnel took corrective action after we notified them of the errors.


                                              4
                    •   Contracting Action, Sample Number 31. DFAS personnel certified
                        one voucher for payment using an FY 2002 Operation and
                        Maintenance appropriation that was not available to pay the vendor for
                        services performed in a subsequent option period of the contract
                        during FY 2003. As a result, DFAS personnel violated 31 U.S.C.
                        1502 and did not appear to meet the requirements of 10 U.S.C. 2410a
                        because the costs incurred for the services were not a bona fide need of
                        the period the funds were available for obligation, and they were
                        incurred in a subsequent contract period that exceeded the 1-year
                        limitation. In two other vouchers, personnel used FY 2003 funds to
                        pay the vendor for services that were a FY 2002 obligation. Using
                        FY 2003 funds to cover the FY 2002 funded services was improper
                        because the funds were not contractually obligated and available to
                        pay for the costs incurred at the time the services were rendered.

                    •   Contracting Action, Sample Number 50. DFAS personnel certified
                        two vouchers for payment using an FY 2002 Operation and
                        Maintenance appropriation that was not available. In one voucher, Air
                        Force personnel approved the payment of an invoice when DFAS
                        personnel incorrectly used expired funds to pay for services rendered
                        in a subsequent fiscal year and contract period of performance. In the
                        second voucher, DFAS personnel continued to use the unliquidated
                        balance of the FY 2002 funds to pay for services rendered in the later
                        period. As a result, DFAS personnel again violated 31 U.S.C. 1502
                        and did not appear to meet the requirements of 10 U.S.C. 2410a.

                    •   Contracting Action, Sample Number 33. DFAS personnel certified
                        a voucher for payment that improperly charged a FCF,D loss against
                        an operating appropriation. In this case, DFAS personnel violated
                        congressional intent and DoD policy when the loss was not charged
                        against the CMA, and the organization absorbed the cost as part of its
                        operating appropriation.


Internal Control
           Management is responsible for establishing and maintaining internal control to
           ensure effective and efficient operations, reliable financial reporting, and
           compliance with laws and regulations. Internal control activities are the “policies,
           procedures, techniques, and mechanisms that help ensure that management’s
           directives to mitigate risks identified during the risk assessment process are
           carried out.” 2 We generally attributed the three errors to a lack of DFAS and Air
           Force personnel oversight and followup on the appropriations that were used to
           certify the vouchers for payment. However, we believe the lack of followup is an
           indication that improvements are needed in management’s internal control related
           to the existing segregation of duties 3 and periodic acknowledgement by personnel
2
    GAO Internal Control Management and Evaluation Tool, Control Activities, page 33, August 2001.
3
    A segregation of duties exists between contracting officers, fund holders, personnel who receive and
    accept performance, certifying officers, and disbursing officers.



                                                       5
           of their accountability. We believe that officials who periodically acknowledge
           their accountability are more likely to follow up on questionable transactions,
           such as using expired funds for services rendered in a subsequent period or
           charging an operating appropriation when a CMA was available for that expense.
           However, because such manual followup is labor intensive, the automation of
           adequate edits, such as those envisaged in the JFMIP integration of the
           acquisition and financial management system, should provide a far more effective
           means to notify personnel of any required followup.

           Automated Controls. Certifying officers rely on accountable officials for the
           information and data used to certify a voucher for payment. Because the three
           errors went undetected until we brought them to DFAS personnel’s attention, the
           risk is high that a systemic weakness exists. Currently, the Air Force acquisition
           systems are not integrated so that critical contract terms, conditions, and lines of
           accounting are interfaced with the financial management systems. While some
           contract information is loaded into the financial management systems, 4 the vendor
           pay and accounting systems are not fully integrated to link this information, such
           as the funded contract periods of performance, to critical data elements within the
           acquisition system. If the systems were integrated, an internal edit could preclude
           using the wrong appropriation to pay a vendor for services performed in a
           subsequent period of performance. In the two contracting actions where expired
           funds were used, such an internal edit would have prevented the violation of
           31 U.S.C. 1502 and the failure to meet the requirements of 10 U.S.C. 2410a.

           While the Integrated Accounts Payable System (IAPS) recognized the payment
           amount was to be paid in Japanese yen, DFAS personnel had not properly
           identified the payment as such and charged the FCF,D loss against the operating
           appropriation instead of the CMA. We attributed the error to a lack of oversight
           by the certifying officer and the need for a system edit that would notify the
           certifying officer of a potential error when a loss was not charged against the
           CMA.


Conclusion
           We believe the risk is high that numerous unidentified errors exist in the
           certification of vouchers and appropriations used to pay vendors.


Management Comments on the Finding and Audit Response

Summaries of management comments on the finding and our audit response
are in Appendix C.



4
    The Integrated Accounts Payable System will identify those contractors who will be paid in a foreign
    currency, subject to the foreign currency exchange rate.



                                                      6
Recommendations, Management Comments and Audit
  Response
    A.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller), in coordination with the Under Secretary of
    Defense (Comptroller/Chief Financial Officer), and the Director, Defense
    Finance and Accounting Service:

           a. Establish guidance, as necessary, requiring fund holders,
    contracting officers, and personnel who receive and accept performance to
    provide effective and timely followup on payments to ensure the correct
    appropriations are used to pay for services in the periods that the services
    are performed.
    Management Comments. The Director, Air Force Accounting and Finance
    Office (SAF/FMP [AFAFO]), nonconcurred with the recommendation and stated
    that Air Force does not feel that it is feasible or warranted for fund holders and
    receiving personnel to perform additional post payment followup.

    The DFAS Denver Central Site Director concurred with the recommendation and
    stated that the IAPS Version 2.0 release will assist in ensuring correct
    appropriations are used to pay for services in the periods that the services are
    performed. He further stated that DFAS will complete stand down training no
    later than October 1, 2006, to reiterate processes and procedures to technicians
    and certifiers to ensure correct appropriations are used to pay for services in the
    periods that the services are performed. The DFAS estimated completion date is
    May 1, 2007.

    Audit Response. The Director’s, (SAF/FMP [AFAFO]), comments were not
    responsive. The DoD FMR, volume 3, paragraph 080403, places the
    responsibility on the fund holders in reviewing unliquidated obligations. That
    responsibility exists because the funds holder initiates those actions that results in
    an obligation and is in the best position to determine the accuracy and status of
    transactions. According to the DoD FMR, volume 5, paragraph 330302 C.4,
    resource managers and fund holders are responsible for maintaining a system of
    positive funds control. In our opinion, the fund holders should have the
    responsibility, with the assistance of the accounting officer, to review the
    appropriation used in its obligation, whether unliquidated or liquidated, for the
    reasons cited in paragraph 080403. Under paragraph 330302, such followup is in
    keeping with a system of positive funds control. Given the potential violation of
    law and regulations that could occur because of the incorrect use of an
    appropriation (Antideficiency Act, illegal augmentation, and others), we believe it
    is warranted for fund holders and receiving personnel to perform additional post
    payment followup.


           b. Require annual recertification of accountable officials to
    acknowledge their pecuniary liability in providing information and data used
    by certifying officials in approving vouchers for payment.


                                          7
Management Comments. The Director, (SAF/FMP [AFAFO]), nonconcurred
with the recommendation and stated that there is no requirement for annual
recertification within the DoD FMR volume 5, chapter 33. He further stated that
initial appointment will adequately inform accountable officials of their
responsibilities.

Audit Response. The Director’s, (SAF/FMP [AFAFO]), comments were not
responsive. Although the DoD FMR, volume 5, chapter 33, does not require
annual recertification, this requirement reinforces the importance that the Air
Force places on the roles that departmental accountable officials play in
safeguarding against erroneous payments and ensuring compliance with laws and
regulations, such as using the correct appropriation to pay for goods or services.
Further, an annual recertification reminds accountable officials of their pecuniary
liability in preventing an erroneous payment or a violation of public law.

       c. Coordinate with the Director, DoD Business Transformation
Agency, to ensure proper integration when designing future acquisition and
financial management systems, as required by the Joint Financial
Management Improvement Program publication, “Acquisition/ Financial
Systems Interface Requirements,” June 2002.

Management Comments. The DFAS Denver Central Site Director concurred
with the recommendation and stated DFAS has established the Strategic Business
Management directorate and assigned it overall responsibility for agency strategic
planning, transformation initiatives, standardization, integration, and
implementation of new operational systems architecture.

A.2. We recommend that the Director, Defense Finance and Accounting
Service establish an automated edit to the Integrated Accounts Payable
System to ensure foreign currency fluctuation losses are not charged to
operating appropriations.

Management Comments. The DFAS Denver Central Site Director concurred
with the recommendation and stated that the IAPS Version 2.0 release will
provide changes to foreign currency processing that will satisfy the intent of the
recommendation. He further stated that it will provide a link between currency
codes and obligation and budget rates and their fluctuation accounts. The
estimated completion date is May 1, 2007.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) reconsider his position on recommendations A.1.a and A.1.b and
provide comments to the final report by January 23, 2006.




                                     8
                    B. Compliance with Prompt Payment Act
                    Internal control was not effective to ensure that vendors were paid in
                    accordance with the contract terms and conditions, as required by the
                    Prompt Payment Act, for 25 of the 45 contracting actions examined.

                        •    In 16 contracting actions, DFAS personnel did not make timely
                             payments and did not accurately pay vendors the interest penalties
                             that were due on 43 of the 277 invoices examined. In 14 of these
                             contracting actions, personnel inaccurately scheduled
                             disbursements because of ambiguous contract terms and practices,
                             inaccurate invoice and receipt data, and other systemic and
                             administrative errors. 5

                        •    In 9 contracting actions, DFAS personnel erroneously processed
                             contract financing, and time, materials, and labor-hour payments
                             that were subject to the payment of interest penalties. DFAS
                             personnel processed the payments under the rules for cost
                             reimbursement services, but the contracts did not support that
                             action.

                    As a result, we believe a high risk exists that numerous vendors are not
                    paid on time and interest penalties are not paid accurately, violating the
                    contract terms and Prompt Payment Act.


Critical Guidance
           Prompt Payment Act. In 1982, Congress passed the Prompt Payment Act
           requiring Federal agencies to pay their bills on time and to pay an interest penalty
           when bills are paid late. Title X, Subtitle A, Section 1010 of the National
           Defense Authorization Act of 2001 applied the provisions of the Prompt Payment
           Act to interim payments on cost-reimbursement service contracts. On
           September 29, 1999, the Office of Management and Budget issued the final rule
           cited in the Code of Federal Regulations, title 5, part 1315 (5 C.F.R. 1315
           [1999]).

           Criteria that are germane to this report and the internal control weaknesses
           identified are provided in 5 C.F.R. 1315.2(m) and 5 C.F.R. 1315.4(b).
           Specifically:

                    •   The designated agency office is the “office designated by the purchase
                        order, agreement, or contract to first receive and review invoices.”
                        The designated agency office can be designated as the receiving entity
                        and may be different from the office that makes the payment.



5
    Two contracting actions were paid late for indeterminate reasons.



                                                       9
       •   The prompt pay period starts on the date a proper invoice is received
           by the designated agency office or the seventh day after the date on
           which the property is delivered or performance is completed,
           whichever is later. If the designated billing office does not show the
           date the invoice is received, the invoice date is used to calculate the
           payment due date. For invoices electronically transmitted, DFAS
           personnel should schedule a payment due date based on the date a
           readable transmission is received by the designated agency office, or
           the next business day if it is received after normal working hours.

Federal Acquisition Regulation (FAR). FAR Part 32.001 defines the
designated billing office as the Government office first to receive the invoices and
contract financing requests from vendors. The FAR use of the term, “designated
billing office” is the same as the “designated agency office” as used in
5 C.F.R. 1315.2(m). According to the FAR, a designated billing office might be:

       •   the Government disbursing office,

       •   the contract administration office,

       •   the office accepting the supplies delivered or services performed by
           the contractor, or

       •   the contract audit office.

Interim payments for cost reimbursement services, which are subject to a payment
of an interest penalty, are distinguished from contract financing payments under
FAR 52.216-7, “Allowable Cost and Payment.” Contract financing payments are
not subject to the payment of an interest penalty. FAR 52.216-7 instructs the
contracting officer to distinguish between an interim payment for cost
reimbursement services and a contract financing payment by inserting a reference
to Alternate I, FAR 52.232-25 in the contract.

Interim payments processed under FAR 52.232-7, “Payments Under Time-and-
Materials and Labor-Hour Contracts,” are contract financing payments and are
not subject to the interest penalty provisions of the Prompt Payment Act.
Contract financing payments are also referenced in FAR 52.232-26, “Prompt
Payment for Fixed-Price Architect-Engineer Contracts,” and FAR 52.232-27,
“Prompt Payment for Construction Contracts.”

Financial Management Regulation. FMR, volume 10, chapter 7, paragraph
070101 states that DoD policy requires disbursing offices to pay vendors in
accordance with the terms of the contract. Disbursing offices must have a copy of
supporting documents, such as the contract or purchase order, invoice, and
receiving reports accomplished by the offices that received the goods and
services, before making a payment.




                                        10
Vendor Payments
           Internal control was not effective to assure that vendors were paid in accordance
           with the contract terms and conditions, as required by the Prompt Payment Act,
           for 25 of the 45 contracting actions examined. In 16 of the 45 contracting
           actions 6 examined, DFAS personnel did not make timely payments and did not
           accurately pay vendors the interest penalties that were due based on the contract
           terms. Of the 16 contracting actions, each action had one or more invoices not
           paid on time, affecting 43 of the 277 invoices examined. 7 The interest penalties
           ranged from $3.04 to $608.69. 8 In 9 contracting actions, 9 DFAS personnel
           erroneously processed interim payments for contract financing (FAR 52.216-7),
           and time, materials, and labor-hour contracts (FAR 52.232-7), which are not
           subject to interest payments, as if they were cost reimbursement service contract
           payments, which are subject to the payment of an interest penalty under the
           Prompt Payment Act. Of the 25 contracting actions, DFAS personnel paid 15 of
           the actions through the Mechanization of Contract Administration Services
           (MOCAS) system. DFAS personnel paid the remaining 10 contracting actions in
           IAPS.


Payment Scheduling
           DFAS personnel did not make payments on 16 contracting actions on time, and
           did not pay vendors the interest due them, because of inaccurate scheduling of
           disbursements. Payment due dates were not accurately scheduled because of:

                    •    inaccurate invoice receipt and acceptance dates (6 actions);

                    •    ambiguous contract terms identifying the designated billing office
                         (3 actions);

                    •    government administrative practices resulting in a “de facto” change
                         of the designated billing office, requiring contract recognition and
                         modification (3 actions);

                    •    unexplained late payments (2 actions);

                    •    incorrect invoice receipt date, system gateway (1 action); and

                    •    incorrect wide-area workflow dates, construction (1 action).



6
    Sample numbers 2, 3, 5, 6, 14, 21, 25, 28, 31, 36, 37, 40, 41, 42, 46, and 50.
7
    We examined a total of 455 invoices for all 45 contracting actions.
8
    We did not include deficiencies when the value of the interest owed was less than $1.00.
9
    Sample numbers 4, 7, 12, 19, 22, 26, 44, 48, and 56.



                                                        11
            Inaccurate Invoice Receipt/Acceptance Dates. DFAS used the incorrect
            invoice receipt and acceptance dates to schedule payments in six contracting
            actions. In three actions, 10 Air Force personnel did not accept performance on the
            receiving reports until after the constructive acceptance period had elapsed. 11
            DFAS, which had the receiving reports as part of its documentation, scheduled
            the payments based on the erroneous acceptance dates. When we identified the
            error on sample number 3, DFAS agreed and paid the vendor the additional
            interest penalty. In three actions, 12 DFAS scheduled the payment due dates based
            on an invoice receipt date not supported by the hardcopy documents. In another
            action (sample number 50), DFAS scheduled the payment based on the date the
            invoice was received at DFAS, which was after the date it was received at the
            designated billing office.

            Ambiguous Contract Terms. Three contracting actions 13 were ambiguous as to
            which Government organization was to receive the invoices as the designated
            billing office. In one contracting action (sample number 6), both DFAS and
            installation personnel were identified as the designated billing office of record. In
            another contracting action (sample number 14), both DFAS and the contracting
            office were identified. In the last contracting action (sample number 46), both
            DFAS and Defense Contract Audit Agency (DCAA) were identified. In each
            contracting action, one section of the contract directed the vendor to send invoices
            to one party while another section directed the vendor to send invoices to DFAS.
            The invoices were actually sent first to the other parties, which approved them for
            payment and then forwarded them to DFAS. However, DFAS personnel
            scheduled the disbursement based on the date they received the invoice, rather
            than scheduling the payment from the date that the other installation received the
            invoice. As a result, the vendor payment due date was not accurately scheduled
            and an interest penalty was incurred but not paid.

            According to DoD policy, DFAS should have a copy of the contract to support a
            payment. For the three contracting actions, we concluded that DFAS either did
            not have a copy of the contract or did not review the entire contract for the
            potential ambiguity in its terms after receiving the invoice from another
            Government office. We believe it is reasonable that DFAS personnel follow up
            when it receives an invoice from another Government office and request the
            contracting officer to modify the contract, as necessary.



10
      Sample numbers 3, 37, and 40. In sample number 40, acceptance was withheld until completion of the
     Beneficial Occupancy Determination that was forestalled because of government delays (flight line
     limitations).
11
  Government personnel are given a 7-day constructive acceptance period to accept delivery or
 performance, unless the contract stipulates otherwise. If personnel take longer than 7 days to accept
 performance, the payment due date is calculated from the 7th day, regardless when actual acceptance
 occurred.
12
      Sample numbers 31, 36, and 37. Sample number 37 had separate invoices paid late because of either
     erroneous invoice or acceptance dates.
13
     Sample numbers 6, 14, and 46.




                                                     12
           Governmental Administrative Practices. In three contracting actions, 14 the
           contracts specifically identified DFAS as the designated billing office, but the
           invoices were first sent to contracting officers or DCAA. In each contract, the
           contracting officers or DCAA approved the invoices and then forwarded the
           invoices to DFAS for payment. DCAA was required to approve the vendor’s
           billing system before authorizing the vendor to directly send invoices to DFAS.
           While DFAS was the only designated billing office of record, we believe the
           contracting officers and DCAA were the “de facto” designated billing offices.
           One contracting officer agreed that the contract improperly made DFAS the
           designated billing office, thereby denying the vendor timely payment and
           payment of an interest penalty. The total interest owed was approximately $266
           for all invoices. 15

           We asked Headquarters DFAS personnel whether the date used to compute the
           start of the prompt pay period (“the clock”) should begin on the date the invoice
           is received by any Government office or when the invoice is received by the
           designated billing office in the contract. DFAS personnel responded:

                   The PPA [Prompt Pay Act] must be interpreted in favor of the vendor.
                   Congress’ intent is to start the clock at the place first designated in the
                   contract. In the case of ambiguity, the intent would be to use the first
                   date received, which can be someplace other than DFAS or paying
                   office. This is clearly recognized in regulations. To use another date
                   puts the vendor at the mercy of the [G]overnment, and subject to our
                   administrative delays. That is not the intent of the law.

           The fact that the contract did not correctly identify the designated billing office,
           but DFAS personnel still relied on that information to make payment, would not
           prevent the vendor from filing a claim against the Government. If the vendor was
           denied timely payment due to an administrative error, the vendor might have a
           basis to submit a claim. Whether a vendor actually submitted a claim or not,
           strengthened internal control is needed to mitigate any potential claims. In that
           regard, the designated billing office in the contract must reflect what occurs in
           administrative practice. We reviewed the contracts in question and determined
           that the contract officers did not modify the contracts to change the designated
           billing office to reflect the administrative practice.

           Unexplained Late Payments. DFAS personnel had unexplained late payments
           on two contracts. 16 We reviewed the vendor invoices and the IAPS and MOCAS
           system supporting documents, but could not attribute the late payments to a
           specific cause.

           Incorrect Invoice Receipt Date, System Gateway. Vendors authorized to
           submit invoices by using electronic format are processed through the Defense
           Information Systems Agency (DISA) gateway. We noted that invoices (sample
           number 41) were received at the DISA gateway up to three days prior to receipt in

14
     Sample numbers 2, 5, and 21.
15
     Sample number 21.
16
     Sample numbers 25 and 28.



                                                      13
    the MOCAS system. However, the MOCAS system scheduled the payment due
    date based on the date the invoices were received in the MOCAS system, not the
    DISA gateway received date. According to 5 C.F.R. 1315.4(b)(1)(i), for invoices
    electronically transmitted, the payment due date should be computed from the
    date a readable transmission is received by the designated agency (billing) office,
    or the next business day if received after normal working hours. Although DISA
    is not the formally recognized designated billing office, the payment due date
    should still be scheduled based on the date the invoice is first received at the
    DISA gateway to effect timely payment under the Prompt Payment Act.

    Incorrect Wide-Area Workflow Dates, Construction. One vendor was not
    paid construction progress payments on time (sample number 42). DFAS
    personnel processed the progress payment relying on data processed in the
    wide-area workflow system, which provides vendors a means to electronically
    submit invoices to DFAS for payment. However, at that time, the wide-area
    workflow system program office did not recommend using the system to make
    construction progress payments because the vendor’s certification of cost was not
    programmed in the system. In our examination of the certification of cost
    statement, we determined that Air Force personnel approved the payment earlier
    than what was reported in the wide-area workflow system. As a result, the vendor
    was not paid on time and an unpaid interest penalty was incurred. Management
    has taken action to make the certification of cost part of the wide-area workflow
    system and no further action is required.


Interim Payments
    DFAS personnel erroneously processed contract financing payments in MOCAS
    under processing rules that would have paid vendors an interest penalty if the
    interim payments were paid late. The erroneous processing occurred because the
    interim payments were processed as Bureau Voucher Numbers. Under the
    Bureau Voucher Number processing rules, vendors were entitled to payment of an
    interest penalty if payments were not made within 30 days. However, in nine
    contracting actions, we determined that the interim payments were for contract
    financing. In our review of five of the contracting actions, we determined that the
    contracting officers did not insert the required reference to Alternate I at FAR
    52.232-25 in the contract, which would designate the interim payments as cost
    reimbursement services, and hence, subject to the payment of an interest penalty.
    In four contracting actions, we determined that the contracting financing
    payments were made under FAR 52.232-7, “Payments Under Time-and-Material
    and Labor-Hour Contracts.” That clause is not subject to payment of an interest
    penalty. As a result, a high risk exists that interest penalties are being paid on
    contract financing payments when processed as Bureau Voucher Number
    payments.




                                        14
Conclusion
       We believe a high risk exists that numerous vendors are not paid in accordance
       with the contract terms and conditions and in accordance with the Prompt
       Payment Act. The contract terms and conditions implement the Prompt Payment
       Act, which requires Federal agencies to pay their bills on time and to pay interest
       penalties when they pay vendors late. However, because of ambiguous contract
       terms and the use of inaccurate invoice receipt and acceptance dates, vendors
       were not paid on time and interest penalties were not paid. In a systems
       environment, such as the recording of receipt dates in the DISA gateway and
       MOCAS system, a systems change can remedy potential system-wide errors. In
       manual processes, such as the review of potentially ambiguous contract terms and
       supporting hardcopy documents to ensure data accuracy, management must affirm
       the importance of such reviews and provide training, as necessary, to personnel
       who are in a position to identify the potential ambiguities or incorrect data entry
       used to schedule payment due dates. Moreover, numerous interim payments were
       erroneously processed in MOCAS system under the rules for cost reimbursement
       services when the contract terms did not substantiate that process. This
       processing creates the possibility of interest penalty payments for non-interest
       bearing contract financing payments.

       While the audit was conducted as an attribute test and we cannot project the total
       dollar value of late payments and unpaid interest penalties, we believe the risk is
       high that numerous vendor payments are paid late and interest penalties are not
       paid.


Management Comments on the Finding and Audit Response

Summaries of management comments on the finding and our audit response are in
Appendix C.

Recommendations, Management Comments and Audit
  Response
       B.1. We recommend that the Assistant Secretary of the Air Force (Financial
       Management and Comptroller) in coordination with the Assistant Secretary
       of the Air Force (Acquisition) and the Director, Defense Finance and
       Accounting Service:

              a. Require personnel who are responsible for receiving and accepting
       goods or services be properly trained on determining actual and the 7-day
       constructive acceptance period.

       Management Comments. The Assistant Secretary of the Air Force (Financial
       Management and Comptroller) and the Assistant Secretary of the Air Force
       (Acquisition) did not comment on the recommendation.


                                            15
The DFAS Denver Central Site Director concurred with the recommendation and
stated that, because IAPS does not systemically calculate constructive acceptance,
technicians must manually adjust acceptance dates that are more than 7 days
outside the receipt date to comply with constructive acceptance requirements. He
further stated that DFAS will continue to reiterate receipt and approval
requirements and address repeat problems through various methods of routine
training and communication. He also stated that DFAS will continue to contact
receiving activities in any situation where supporting documents appear to
conflict and receipt and acceptance dates appear to be misstated. DFAS will also
reinforce training regarding the determination of actual and constructive
acceptance periods to IAPS users and will investigate wide-area workflow system
changes to automatically calculate constructive acceptance. The Director stated
that personnel have recently reiterated the requirements for constructive
acceptance with processing technicians and certifiers during a weekly team
meeting.

       b. Require personnel who receive and approve invoices be properly
trained on determining the date stamping of invoices received.

Management Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) and the Assistant Secretary of the Air Force
(Acquisition) did not comment on the recommendation.

The DFAS Denver Central Site Director concurred with the recommendation and
stated that DFAS agrees that proper date stamping of invoices going to designated
billing offices has been a long-standing concern and there are many situations
when the designated billing office fails to date stamp the invoice upon receipt.
The Director further stated that when this occurs, DFAS uses the invoice date as
the invoice receipt date, in accordance with DoD FMR requirements. The
Director stated that DFAS reiterated its procedures to determine the proper date
the invoice is received during recent weekly team meetings with processing
technicians and certifiers. He further stated that procedures are in place to
properly date stamp invoices upon receipt at the designated billing office, and that
these procedures will continue to be reiterated through teleconferences,
symposiums, briefings, and the Client Executive.

       c. Develop procedures for the review and followup on contracts that,
as a matter of record or administrative practice, create an ambiguity
regarding the designated billing office.

Management Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) did not comment on the recommendation,
deferring to the Assistant Secretary of the Air Force (Acquisition) for comment.
The Assistant Secretary of the Air Force (Acquisition) concurred with the
recommendation and stated that the Deputy Assistant Secretary (Contracting) will
issue guidance instructing Contracting Officers to work with DFAS personnel to
eliminate designated billing office ambiguities in contracts by requiring the
designated billing office data be included in the administrative data section of the
contract. She further stated that the guidance will stipulate that the information in


                                     16
the administrative data section must match the contract cover page payment
information block.

The DFAS Denver Central Site Director concurred with the recommendation and
stated the DFAS Columbus Entitlement Branch has recently developed
procedures which instruct employees to review and follow up on contracts that
create ambiguity regarding the designated billing office. When discrepancies are
identified, a Contract Deficiency Report is issued for clarification on contracts
written with the incorrect payment office. This process includes the tracking and
followup procedures necessary to obtain corrected contractual agreements. He
further stated that reiteration of policies and procedures and training is ongoing
through in-house training programs.

       d. Require that contracting officers review contracts to determine
whether the interim payments are cost reimbursement services or contract
financing, and process the payments under the rules that apply in
accordance with the Federal Acquisition Regulation.

Management Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) did not comment on the recommendation,
deferring to the Assistant Secretary of the Air Force (Acquisition) for comment.
The Assistant Secretary of the Air Force (Acquisition) concurred with the
recommendation and stated that the Deputy Assistant Secretary (Contracting) will
issue a memorandum to ensure that Contracting Officers clearly understand that
contract financing payments are not subject to the payment of an interest penalty
and to direct Contracting Officers to review contracts to assure the proper contract
clauses are in place.

B.2 We recommend that the Director, Defense Finance and Accounting
Service:

       a. Require its personnel to review contracts prior to payment to
determine whether the interim payments are cost reimbursement services or
contract financing, and for personnel to assure that the payment systems
process the payments under the rules that apply to the applicable Federal
Acquisition Regulation.

Management Comments. The DFAS Denver Central Site Director
nonconcurred with the recommendation and stated that Contract Pay Operations
(MOCAS) currently has a means of determining whether cost contracts are for
cost reimbursement services or contract financing. Contracts that are for cost
reimbursement services are identified in MOCAS as a “Kind 6” (services)
contract. He further stated that a memorandum issued by the Office of the Under
Secretary of Defense (OUSD) (Deputy Chief Financial Officer), dated July 14,
2006, announced that DFAS would continue to apply the 14-day rule to all
bureau (cost) voucher submissions, regardless of contract type. He further stated
that the decision was upheld in a memorandum issued by the OUSD and
Acquisition Logistics and Technology (Director, Defense Procurement and
Acquisition Policy), dated July 19, 2006. Finally, the Director stated that pending
receipt of additional information from the Office of Management and Budget or
OUSD, DFAS will continue to follow current guidance.


                                    17
Audit Response. The DFAS Denver Central Site Director’s comments were not
responsive to the specifics of the finding and recommendation. In the finding, we
stated that we determined that the contracting officer had not inserted the required
Alternate I at FAR 52.232-25, to classify the contract for cost reimbursable
services. In a follow up with DFAS, we determined that six of the nine
contracting actions were designated “Kind 6” for cost reimbursable services but
that the designation was not in accordance with the terms of the contract. As a
result, the vendor payments were subject to the payment of an interest penalty
without the required contractual authority.

       b. Modify the Mechanization of Contract Administration Services
system to start the prompt payment period clock on the date that electronic
invoices are received at the Defense Information Services Agency gateway.

Management Comments. The DFAS Denver Central Site Director concurred
with the recommendation and stated that a system change request has been
initiated and forwarded for review. This system change request will allow the
capture of invoice receipt dates from the DISA Gateway for various electronic
systems, and will also allow posting of the data into MOCAS. However, until the
MOCAS Rehost is completed, DFAS will not be able to capture the invoice
receipt date for those invoices received on the weekend. Status of the MOCAS
Rehost and the system change request will be provided in April, 2007. The
estimated completion date is May 15, 2007.

We request the DFAS Denver Central Site Director reconsider his position on
Recommendation B.2.a, and provide comments to the final report by January 23,
2006.




                                     18
                    C. Cash Management Practices
                    Internal control was not effective to ensure that cash management
                    practices were in compliance with laws and regulations. Specifically,

                              •   DFAS personnel did not prevent vendor payments from being
                                  made more than 7 days prior to the accurately scheduled
                                  payment due dates. In 16 of 45 contracting actions examined,
                                  DFAS personnel paid vendors earlier than 7 days prior to the
                                  payment due date, thus incurring an unnecessary borrowing
                                  cost.

                              •   DFAS personnel did not accept economically justified cash
                                  discounts offered by vendors in 2 of 45 contracting actions.

                    We generally attributed the early payments to inadequate controls over
                    payment systems, improper processing of payments as interim payments
                    under a 14-day payment term, and inaccurate data entry. Economically
                    justified discounts were not taken because of untimely processing of
                    contract changes and requirements, and DFAS personnel did not reprocess
                    a discount offer on an invoice after initially rejecting the invoice for cause.
                    As a result, we believe a high risk exists that numerous vendors are paid
                    prematurely thereby incurring unnecessary borrowing costs, and
                    economically justified cash discounts are lost.


Critical Guidance
           Prompt Payment. According to the final ruling on 5 C.F.R. 1315.4(j), “Prompt
           Payment,” 17 the Office of Management and Budget will prescribe regulations that
           “permit an agency to make payment up to 7 days prior to the required payment, or
           earlier as determined by the agency to be necessary on a case-by-case basis.”
           However, 5 C.F.R. 1315.5(d) also authorizes, as a class of transactions,
           accelerated interim payments on cost reimbursement service contracts.
           In 5 C.F.R. 1315.2(n) and 5.C.F.R. 1315.7, discounts are defined as “an invoice
           payment reduction offered by the vendor for early payment that agencies may
           take, if economically justified, whether included in the contract or offered on an
           invoice.” Whether an early payment is economically justified is determined by
           the discount formula found in the Treasury Financial Manual.

           Federal Acquisition Regulation. FAR 52.216-7, “Allowable Cost and
           Payment,” provides for interim payments as either contract financing or cost
           reimbursement services. If the interim payments to be made are for cost
           reimbursement services, the FAR clause instructs contracting officers to insert a
           reference to Alternate I, at FAR 52.232-25, or the interim payments made are
           considered contract financing.

17
     Section 3903(a)(8), title 31, United States Code.



                                                         19
            FAR 52.232-8, “Discounts for Prompt Payment,” establishes that cash discounts
            can be included with the initial offer or on individual invoices, and that the
            discount period begins on the invoice date; if an invoice date is not indicated, the
            discount period begins on the date the invoice is received by the designated
            billing office, provided a date stamp is applied. FAR Subpart 13.4, “Fast
            Payment Procedures,” 18 establishes a condition that individual purchasing
            instrument payments for fast pay invoices do not exceed $25,000 unless an
            exception is granted.

            Defense Federal Acquisition Regulation Supplement (DFARS). DFARS
            Subpart 232.9, “Prompt Payment” (Revised September 21, 1999), states that
            contracting officers will generally reference the standard due date of 14 days for
            interim payments on cost type contracts. Contracting officers make the reference
            in the contract in paragraph (b) (1) of the Prompt Payment clauses at
            FAR 52.232-25, 52.232-26, and 52.232-27. 19

            Financial Management Regulation. FMR volume 10, chapter 7 provides the
            DoD policy regarding the Prompt Payment Act. DoD policy states that:

                     •   sound cash management dictates payments be made no earlier than the
                         23rd day 20 without being considered an early payment;

                     •   early payments act as a waiver of cash management that must be
                         approved by a DFAS Center Director or head of a disbursing office or
                         their designee;

                     •   payments for orders under the Fast Payment Procedures will be made
                         no later than 15 days after receipt of a proper fast pay invoice;

                     •   payments should be made as close as possible to the payment due date,
                         but no later than the discount due date, if a cost-effective discount is
                         offered; and

                     •   if the contract discount terms conflict with the terms on the invoice,
                         then the discount most advantageous to the Government will be taken.
                         If personnel reject the invoice, the paying office should make an effort
                         to have the invoice date changed or a new invoice provided with the
                         current date so that the cash discount period will start anew.

            Treasury Financial Manual. The Treasury Financial Manual, volume 1, part 6,
            chapter 8040.40, states that agency payment systems should be capable of
            handling cash discounts as a matter of routine. Chapter 8040.40 also establishes
            the formula by which a cash discount is determined economically justified. The
18
      Fast pay procedures provide for payment within 15 days of receipt of the invoice, without evidence of
     the receipt and acceptance of the goods or services as a condition of payment.
19
 DFARS Subpart 232.9 was revised on December 20, 2005. While the revision did not affect the results
 presented in this report, it could impact the results of future audits in this area.
20
  The DoD FMR use of the 23rd day is based on the standard 30-day payment due date established in the
 Prompt Payment Act, and the provision that payments should not be made earlier than 7 days from the
 payment due date.



                                                       20
            cash discount is economically justified, and payment is made to take advantage of
            the discount, when the effective annual discount rate found using the formula is
            greater than the Treasury current value of funds rate.


Cash Management
            Internal control was not effective to ensure cash management practices were in
            compliance with laws and regulations. Specifically, cash management practices
            were not followed to prevent vendor payments from being made more than 7 days
            prior to the accurately scheduled payment due dates, and to accept economically
            justified cash discounts offered by vendors. In 16 of 45 contracting actions 21
            reviewed, DFAS personnel paid 101 of 328 invoices more than 7 days prior to the
            scheduled due date. In 2 of 45 contracting actions, 22 DFAS personnel did not take
            advantage of economically justified cash discount offers on 15 of the 23 invoices
            that were submitted.

            Early Payments. DFAS personnel made early payments affecting both the IAPS
            and MOCAS system.

                     •   IAPS. DFAS personnel paid vendors early on 7 of 16 contracting
                         actions. On one contract, the vendor was paid early when the invoice
                         date, not the later of the date the services were received, was used to
                         schedule the payment due date (sample number 57). On another
                         contract, the invoice was treated as a 15-day fast pay invoice although
                         the amount was over the $25,000 limit and no exception had been
                         granted (sample number 53). In the remaining five contracting
                         actions, 23 we could not determine why the payments were made early
                         on the invoices. In general, where we could not determine why the
                         invoices were paid early, an IAPS internal edit was not in evidence to
                         notify certifying officers when payments were scheduled earlier than
                         7 days from the accurately scheduled payment due dates.
                     •   MOCAS System. DFAS personnel paid vendors early on 9 of 16
                         contracting actions 24 because the MOCAS system was programmed to
                         pay invoices that were coded as Bureau Voucher Numbers on a 14-day
                         payment term. DFAS personnel made interim payments, which are
                         authorized under FAR 52.216-7, “Allowable Cost and Payment,” on
                         8 of the 9 contracting actions. 25 However, we determined the vendors
                         that submitted invoices under the Bureau Voucher Numbers format did
                         not have contract authority to receive payment under the 14-day
                         payment term because they were not classified as cost reimbursement
21
      Sample numbers 4, 6, 7, 12, 19, 22, 25, 31, 33, 36, 44, 48, 50, 53, 56, and 57. Samples represent
     invoices paid both in IAPS and the MOCAS system.
22
     Sample numbers 38 and 50.
23
     Sample numbers 6, 31, 33, 36, and 50.
24
     Sample numbers 4, 7, 12, 19, 22, 25, 44, 48, and 56.
25
     Sample numbers 4, 7, 12, 19, 22, 44, 48, and 56.



                                                        21
                         services, and, therefore, not subject to accelerated payment under
                         5 C.F.R. 1315. Specifically, the contracting officers did not insert
                         Alternate I in the clause at FAR 52.232-25, which was required to
                         designate the interim payments for cost reimbursement services.
                         Moreover, the contracting officers did not comply with DFARS
                         Subpart 232.9 in designating the interim payments, which were for
                         contract financing, as subject to the 14-day payment term. In 4 of the
                         9 contracting actions, the contracting officers specifically inserted a
                         statement that the payment due date was on the 30th day. In one
                         contracting action, the payment term related to FAR 52.212-4,
                         “Commercial Items,” and was not a candidate for either accelerated or
                         14-day payment (sample number 25).

            Discounts. DFAS personnel did not take advantage of the discounts offered
            because one discount was offered in the contract terms but not shown on the
            invoice (sample number 50); and a new invoice, or new invoice date, was not
            requested on a rejected invoice so the cash discount period should have started
            anew (sample number 38).


Discussion of Effect
            Prudent cash management practices reduce the overall financing cost of the
            Government and the taxpayer burden. For payments made early, the borrowing
            cost to the Department of the Treasury ranged from $1.17 to $1,578.24 for the
            invoices examined. 26 For discounts offered but not taken, the opportunity loss
            ranged from $3.12 to $1,510.62 for the invoices examined. We conducted the
            audit as an attribute test, and the results cannot be projected to the overall
            borrowing cost and opportunity loss. However, because 17 of the 45 contracting
            actions 27 reviewed contained errors, the risk is high that numerous payments are
            paid earlier than allowed by waiver and economically justified discounts offered
            are not being taken.


Management Comments on the Finding and Audit Response
Summaries of management comments on the finding and our audit response are in
Appendix C.




26
     Borrowing costs of less than $1.00 for an invoice were not considered exceptions.
27
      Sample number 50 appears in both the Early Payments section and the Discounts section, but is only
     counted as one contracting action.



                                                      22
Recommendations, Management Comments and Audit
  Response
    C.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller), in coordination with the Assistant Secretary
    of the Air Force (Acquisition) and Director, Defense Finance and Accounting
    Service:

            a. Establish an internal control edit within the Integrated Accounts
    Payable System to notify the certifying officer when a payment is approved
    earlier than 7 days prior to the scheduled payment due date and when
    discounts offered either by contract or by invoice should be taken.
    Management Comments. The DFAS Denver Central Site Director concurred
    with the intent of the recommendation and stated that establishing an internal
    control edit in IAPS to notify the certifying officer of an early payment will not
    preclude a payment from being approved earlier than allowed and when discounts
    offered are not taken. He further stated that there are certain periods and
    circumstances when early release of payments is authorized to preclude payment
    delays. He further stated that certifying officers are required to validate all
    entered dates and the scheduled payment due date to ensure payments comply
    with the Prompt Payment Act and that all offered discounts are taken or recorded
    as lost. He identified several methods that DFAS uses to identify and resolve
    erroneous payments on a continual basis through which DFAS identifies
    problems and in-house training needs. DFAS now uses a spreadsheet to track and
    document early payment authorizations and mass early releases as a standard
    process.

           b. Require that contracting officers and Defense Finance and
    Accounting Service personnel review the contracts to determine whether the
    interim payments are cost reimbursement services or contract financing, and
    process the payments under the rules that apply in accordance with the FAR
    and DFARS provisions.

    Management Comments. The Assistant Secretary of the Air Force (Financial
    Management and Comptroller) did not comment on the recommendation,
    deferring to the Assistant Secretary of the Air Force (Acquisition) for comment.
    The Assistant Secretary of the Air Force (Acquisition) concurred with the
    recommendation and stated that the Deputy Assistant Secretary (Contracting) will
    issue a memorandum to ensure that Contracting Officers clearly understand that
    contract financing payments are not subject to the payment of an interest penalty
    and to direct Contracting Officers to review contracts to assure the proper contract
    clauses are in place.

    The DFAS Denver Central Site Director nonconcurred with the recommendation
    and stated DFAS currently has procedures that allow personnel to properly
    identify whether interim payments on cost-type contracts are for cost
    reimbursement payments for services or contract financing. For additional
    information, he referred to the response on Recommendation B.2.a, and stated
    until additional guidance is received, DFAS will follow the OUSD decision.


                                        23
Audit Response. The DFAS Denver Central Site Director’s comments are not
responsive. Specifically, in a followup with DFAS, we determined that six of the
nine contracting actions were designated “Kind 6” for cost reimbursable services
but that the designation was not in accordance with the terms of the contract. As
a result, the vendor payments were subject to a 14-day payment without the
required contractual authority.

We request the DFAS Denver Central Site Director reconsider his position on
Recommendation C.1.b and provide comments to the final report by
January 23, 2006.




                                   24
Appendix A. Scope and Methodology
   This is the third in a series of reports examining internal control and compliance
   with laws and regulations of the Air Force General Fund vendor pay disbursement
   cycle. In this report, we discuss the outcome of our tests of vendor payments for
   45 contracting actions by the Defense Finance and Accounting Service. We
   performed internal control tests to determine whether payments were made
   properly, on time, and with prudent cash management practices. Our sample of
   45 contracting actions was randomly selected from a universe of 15,096 items
   reported during the period July 1, 2003, through September 30, 2003. If a
   contracting action was not within the scope of audit, we replaced it with the next
   randomly selected item in the sample. The audit test period extended from
   October 1, 2003, through June 30, 2004. In a control sample test of 45 items, one
   deviation represents a high risk that internal control is not effective.

   In our examination of the 45 contracting actions (which included funding
   modifications), we reviewed the contract file documentation for each sampled
   action to determine the timing, nature, character, and terms and conditions related
   to the action. We also obtained copies of the funding documents for the
   contracting action. Based upon the contract data gathered, we traced the delivery
   of the goods and services through receipt and acceptance by the Government,
   invoice certification, payment, and recognition of the related transactions in the
   budgetary and proprietary general ledger accounts in the official accounting
   records.

   We performed this audit from January 2004 through March 2006 in accordance
   with generally accepted government auditing standards. Our review of the
   transactions related to the deliveries and payments made against the contracting
   actions during the period October 2003 through June 2004, except for those
   actions that were funding modifications. We reconstructed the funding and
   payment histories on all funding modifications back to the inception of the basic
   order.

   Use of Computer-Processed Data. We relied on data from the IAPS, MOCAS,
   and Electronic Document Access systems. However, we did not perform a formal
   reliability assessment on those systems. Instead, we compared the system data to
   the hardcopy contracts, funding documents, invoices, and receiving documents to
   assess data accuracy for the lines of accounting charged and payments made
   against the 45 contracting actions selected for audit.
   Use of Technical Assistance. The Office of General Counsel, Office of the
   Inspector General, assisted in the review of the legality of the contracting actions
   and funds used to pay vendors identified in this report. In addition, personnel
   from the Quantitative Methods Division, Office of the Inspector General, assisted
   in the development of the statistical analysis presented in this report.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   addresses issues related to the Defense Financial Management high-risk areas.



                                        25
Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense (IG
    DoD) has issued two reports related to the Air Force General Fund vendor pay
    disbursement cycle. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.mil/audit/reports.


DoD IG
    DoD IG Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Funds Control,” May 15, 2006
    DoD IG Report No. D-2006-056, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Contract Formation and Funding,” March 6, 2006




                                       26
Appendix B. Contracting Actions Selected for
            Review




                       27
28
29
Appendix C. Management Comments on the
            Findings and Audit Response
   The Director, Air Force Accounting and Finance Office (SAF/FMP [AFAFO]),
   nonconcurred with the findings and recommendations, stating that the DoD IG
   should revise the draft report to direct recommendations to the appropriate
   officials. He stated that the manner in which the report was issued required each
   agency in the overall recommendation to determine their responsibility for the
   recommendations and answer independently. He further stated that the DoD
   Internal Audit Manual, DoD 7600.7-M, June 1990, requires draft reports to be
   staffed through the management officials responsible for taking corrective action.
   The Central Site Director, Defense Finance and Accounting Service, Denver, did
   not agree that the findings constitute a high risk as presented in the audit report.
   He stated that the sample of 45 items is not a true representation of the total
   contracts in IAPS and MOCAS, and that one defect does not indicate a high risk.
   He further stated that the sampling size is flawed, the risk is actually low, and
   internal controls are effective.

   Audit Response. In the findings, we reported that a high risk existed that Air
   Force internal control was not effective to assure that vendors were paid with the
   correct appropriations and in accordance with laws and regulations for prompt
   payment and cash management practices. We determined that, because internal
   control of payments to vendors of Air Force General Funds is a responsibility of
   Air Force management, the Secretary of the Air Force for Financial Management
   (SAF/FM) is the primary organization to direct recommendations to improve
   these controls. However, we also recognize that other organizations must be
   involved to truly make the changes that we are recommending to the internal
   controls. Therefore, we recommended that the Secretary of the Air Force for
   Financial Management coordinate its actions with the other organizations that are
   involved with processing payments to vendors.
   We also do not agree with the Central Site Director regarding our risk assessment
   and the sample size that we used in our assessment. Our assessment was based on
   the Government Accountability Office and President’s Council on Integrity and
   Efficiency Financial Audit Manual criteria for conducting a control sample test of
   internal control and compliance with laws and regulations. The criteria states that
   in a sample of 45 items, one defect does constitute a high risk that controls are not
   effective, although the auditor should consider other qualitative aspects of the
   sample and the nature of the defects. One qualitative aspect we considered was
   the distribution of the errors between the IAPS and MOCAS systems. That
   distribution was 10 errors and 6 errors respectively. According to the
   Government Accountability Office and President’s Council on Integrity and
   Efficiency Financial Audit Manual, those results would still have qualified as
   high risk even if we had sampled 209 contracting actions. Our audit assessment
   originated with a sample of contracting actions, and from that sample we
   determined compliance with the prevailing contract terms and the Prompt
   Payment Act. Thus, our risk assessment related to overall compliance, not the
   risk associated with each automated system that was used to pay vendors.


                                        30
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Business Transformation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Contract Audit Agency


Non-Defense Federal Organization
Office of Management and Budget




                                          31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        32
Department of the Air Force Comments




                     33
34
35
36
37
38
39
Defense Finance and Accounting Service
Comments




                      40
41
42
43
44
45
46
47
48
49
50
51
52
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Amy J. Frontz
Marvin L. Peek
John W. Barklage
David M. Barbour
Mary K. Reynolds
Kevin M. Roths
William F. Lanyi
Lam B. Nguyen
Erin S. Hart
James D. Hartman
Lusk F. Penn
